Department of Homeland Security
   Ofﬁce of Inspector General

        U.S. Computer Emergency Readiness Team 

        Makes Progress in Securing Cyberspace, but 

                   Challenges Remain 





OIG-10-94                                         June 2010
                                                             Office of Inspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 20528




                                       June 7, 2010


                                          Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audits, inspections, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses the U.S. Computer Emergency Readiness Team’s (US-CERT)
efforts to coordinate national cyber analyses and warnings against and response to attacks
within the nation’s critical infrastructure. It is based on direct observations and analyses
of applicable documents. We obtained additional supporting documentation through
interviews with selected personnel located in the National Cyber Security Division, US-
CERT Program Office, Carnegie Mellon University – Software Engineering Institute, and
selected federal agencies.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.




                                          Richard L. Skinner 

                                          Inspector General 

Table of Contents/Abbreviations 


Executive Summary .............................................................................................................1


Background ..........................................................................................................................2 


Results of Audit ...................................................................................................................3 


     Actions Have Been Taken to Address Cybersecurity....................................................3 


     Improvements Are Needed to Strengthen the Cybersecurity Program..........................5 

     Recommendations........................................................................................................11             

     Management Comments and OIG Analysis ...............................................................11 


     Better Information Sharing and Communication Can Enhance Coordination

     Efforts With the Public ................................................................................................12 

     Recommendations........................................................................................................14             

     Management Comments and OIG Analysis ................................................................15 


     Improved Situational Awareness and Identification of Network Anomalies 

     Can Better Protect the Cyberspace ..............................................................................17 

     Recommendation .........................................................................................................21            

     Management Comments and OIG Analysis ................................................................21 


Appendices
     Appendix A:             Purpose, Scope, and Methodology .....................................................22 

     Appendix B:             Management Comments to the Draft Report .....................................24 

     Appendix C:             Major Contributors to this Report ......................................................28 

     Appendix D:             Report Distribution.............................................................................29 

Table of Contents/Abbreviations 


Abbreviations
  CIO               Chief Information Officer
  CISO              Chief Information Security Officer
  DHS               Department of Homeland Security
  FISMA             Federal Information Security Management Act
  GAO               Government Accountability Office
  GFIRST            Government Forum of Incident Response
                    Security Team
  NCCIC             National Cybersecurity and Communications
                    Integration Center
  NCSD              National Cyber Security Division
  NIPP              National Infrastructure Protection Plan
  NPPD              National Protection and Programs Directorate
  OMB               Office of Management and Budget
  SOP               Standard Operating Procedure
  US-CERT           U.S. Computer Emergency Readiness Team
OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                     We reviewed the U.S. Computer Emergency Readiness Team’s
                     (US-CERT) efforts in coordinating national cybersecurity analyses
                     and warning against and response to attacks against the nation’s
                     cyberspace. US-CERT leads a public-private partnership to
                     protect and defend the nation’s cyber infrastructure. It coordinates
                     and facilitates information sharing among federal agencies, state
                     and local governments, private sectors, academia, international
                     partners, and the public on cybersecurity threats and attacks.

                     US-CERT has made progress in implementing a cybersecurity
                     program to assist federal agencies in protecting their information
                     technology systems against cyber threats. Specifically, it has
                     facilitated cybersecurity information sharing with the public and
                     private sectors through various working groups, issuing notices,
                     bulletins, and reports, and web postings. Further, the Office of
                     Cybersecurity and Communications has established a unified
                     operations center that includes US-CERT to address threats and
                     incidents affecting the nation’s critical information technology and
                     cyber infrastructure. To increase the skills and expertise of its
                     staff, US-CERT has developed a technical mentoring program to
                     offer cybersecurity and specialized training.

                     Still, US-CERT can further improve its analysis and warning
                     program. For example, US-CERT must improve its management
                     oversight by developing a strategic plan, establishing performance
                     measures, and approving policies and procedures to ensure that its
                     analysis and warning program is effective. It must also ensure that
                     it has sufficient staff to perform its mission. Additionally, it
                     should improve its information sharing and communications
                     coordination efforts with the public. Finally, US-CERT needs to
                     improve its situational awareness and identification capability by
                     monitoring the federal cyber infrastructure for network anomalies
                     in real-time.

                     We are making seven recommendations to the Under Secretary of
                     the National Protection and Programs Directorate (NPPD). NPPD
                     concurred with six of the seven recommendations and has

     U.S. Computer Emergency Readiness Team Makes Progress in Securing Federal Cyberspace, but 

                                        Challenges Remain 


                                            Page 1
                    already begun taken actions to implement them. NPPD’s response
                    is included, in its entirety, as Appendix B.


Background
                    The National Strategy to Secure Cyberspace provides the
                    framework and guidance for national cybersecurity efforts,
                    including responding to threats and incidents, reducing
                    vulnerabilities, promoting outreach and awareness, training, and
                    establishing partnerships through increased coordination among
                    state and local governments, academia, international organizations,
                    and the public and private sectors. Additionally, DHS is
                    responsible for developing the national cyberspace security
                    response system, which includes providing crisis management
                    support and coordinating with other agencies to provide warning
                    information.

                    The National Cyber Security Division (NCSD) created US-CERT
                    in 2003 to protect the federal government network infrastructure
                    by coordinating efforts to defend against and respond to cyber
                    attacks. Specifically, US-CERT is responsible for analyzing and
                    reducing cyber threats and vulnerabilities, disseminating cyber
                    threat warning information, and coordinating cyber incident
                    response activities.

                    Additionally, US-CERT collaborates with federal agencies, the
                    private sector, the research community, academia, state, local, and
                    tribal governments, and international partners. Through
                    coordination with various national security incident response
                    centers in responding to potential security events and threats on
                    both classified and unclassified networks, US-CERT disseminates
                    cybersecurity information to the public.

                    US-CERT is comprised of the following four sections:

                           Analysis – provides analytical insight into cyber activity;
                           conducts technical analysis of data; and characterizes the
                           threat, vulnerability, and incident.

                           Business, Performance, and Planning – improves mission
                           through integrated planning; provides oversight in
                           management of the budget and program performance; and
                           manages staffing efforts.


    U.S. Computer Emergency Readiness Team Makes Progress in Securing Federal Cyberspace, but 

                                       Challenges Remain 


                                           Page 2
                            Detection – develops actionable intelligence from multiple
                            sources; tracks and reports metrics from the sensor suite; and
                            coordinates with Network Security Deployment and Federal
                            Network Security.

                            Mission Management – maintains operations center;
                            produces and reports threat information; and collaborates and
                            coordinates with cybersecurity stakeholders.

                     NCSD developed Einstein to provide US-CERT with a situational
                     awareness snapshot of the health of the federal government’s
                     cyberspace. US-CERT manages Einstein and maintains its public
                     website and secure portal to fulfill the mission. Technologies, such
                     as Einstein, enable US-CERT to detect unusual and previously
                     identified network traffic patterns and trends that signal
                     unauthorized, threatening, or risky networks activities, and to
                     categorize anomalous activity that could pose a risk to US-CERT
                     constituents. US-CERT uses other systems in addition to Einstein.
                     Through fusion of information received from all of these sources,
                     US-CERT is able to prioritize and escalate cyber activity
                     appropriately, coordinate incident response activities, and share
                     alerts, warnings, and mitigation strategies around threats and
                     vulnerabilities.


Results of Audit
     Actions Have Been Taken to Address Cybersecurity
                     US-CERT has made progress in developing and implementing the
                     capabilities to detect and mitigate cyber incidents across federal
                     agencies’ networks. Similarly, US-CERT leads and coordinates
                     efforts to improve the nation’s cybersecurity posture, promote
                     cyber information sharing, and mitigate cyber risks.

                     For example, the Office of Cybersecurity and Communications
                     developed the National Cybersecurity and Communications
                     Integration Center (NCCIC), which is a unified operations center
                     to address security threats and incidents that may affect the




     U.S. Computer Emergency Readiness Team Makes Progress in Securing Federal Cyberspace, but 

                                        Challenges Remain 


                                            Page 3
                         nation’s critical information systems and network infrastructure. 1
                         Specifically, the NCCIC helps DHS to fulfill its mission to secure
                         cyberspace by supporting the decision making process for the
                         federal government, and enabling incident response through shared
                         situational awareness. As a result, the NCCIC serves as the
                         "central repository" for the cyber protection efforts of the federal
                         government and its private sector partners. Figure 1 shows the
                         NCCIC’s Watch Floor layout.




                                                         2	
                         Figure 1. NCCIC Watch Floor.                              Source: US-CERT

                         Other actions designed to improve the expertise of US-CERT staff
                         and information sharing include the following:

                                  Conducting in-person and online training to increase
                                  individual’s knowledge, skills, and abilities regarding
                                  specific information topics that are relevant to US-CERT
1
  The NCCIC consists of the following organizations: National Communications System, National
Coordinating Center; NCSD, US-CERT; NCSD, Industrial Control System Cyber Emergency Response
Team; Office of Intelligence and Analysis; National Cybersecurity Center; Department and Agency,
Security Operations Centers; Law Enforcement and Intelligence Community; and the private sector.
2
  The NCCIC is located in Arlington, VA and is equipped with wall-mounted screens to display maps and
threat data. The NCCIC has a seating capacity of 60 personnel.



         U.S. Computer Emergency Readiness Team Makes Progress in Securing Federal Cyberspace, but 

                                            Challenges Remain 


                                                Page 4
                                  operations. Training relates to packet capture analysis and
                                  signature development; malware; and web browser
                                  security. 3

                                  Participating in public and private sector working groups to
                                  promote information sharing and collaboration. The
                                  working groups assist in the coordination and mitigation of
                                  computer and cyber security incidents as well as the
                                  development of best security practices.

                                  Distributing US-CERT products regarding specific
                                  vulnerabilities and situational awareness, as well as
                                  quarterly trend and analysis reports, to public and private
                                  sectors.

                          While progress has been made, US-CERT still faces numerous
                          challenges in reducing cyber security risks and protecting the
                          nation’s critical infrastructure. US-CERT must continue to
                          improve its ability to analyze and reduce cyber threats and
                          vulnerabilities and to disseminate information through a cohesive
                          effort between public and private sectors.


        Improvements Are Needed to Strengthen the Cybersecurity
        Program
                          US-CERT is hindered in its ability to provide an effective analysis
                          and warning program for the federal government in a number of
                          ways. Specifically, US-CERT does not have the appropriate
                          enforcement authority to help mitigate security incidents.
                          Additionally, it is not sufficiently staffed to perform its mission.
                          Further, US-CERT has not finalized performance measures and
                          policies and procedures related to cybersecurity efforts.

                          Enforcement Authority Could Help Mitigate Security
                          Incidents

                          US-CERT does not have the appropriate enforcement authority to
                          ensure that agencies comply with mitigation guidance concerning
                          threats and vulnerabilities. It needs the authority to enforce its

3
  Packet capture involves reviewing the content of the data stream in the network traffic. Signature
development consists of creating a mathematical algorithm to identify information in a message. Malware
is malicious codes (e.g., viruses and worms) used to disrupt service.



         U.S. Computer Emergency Readiness Team Makes Progress in Securing Federal Cyberspace, but 

                                            Challenges Remain 


                                                 Page 5
                           recommendations so that federal agencies’ systems and networks
                           are protected from potential cyber threats. Without this authority,
                           US-CERT is limited in its ability to mitigate effectively ever
                           evolving security threats and vulnerabilities.

                           According to The National Strategy to Secure Cyberspace, DHS is
                           required to establish a public-private partnership to respond to and
                           reduce the potential damage from cyber incidents. Additionally,
                           the National Infrastructure Protection Plan (NIPP) stipulates that
                           US-CERT, a partnership between DHS and the public and private
                           sectors, is tasked to secure the nation’s critical infrastructure and
                           coordinate the defense against and response to cyber attacks across
                           the nation. Further, the NIPP requires agencies to cooperate with
                           DHS in implementing protection efforts.

                           However, US-CERT was not given the authority to compel
                           agencies to implement its recommendations to ensure that system
                           vulnerabilities and incidents are remediated timely. US-CERT
                           management officials stated that the proposed Federal Information
                           Security Management Act (FISMA) 2008 legislation would have
                           given it some leverage to implement incident response and
                           cybersecurity recommendations. 4 For example, the proposed
                           legislation would have required agencies to address incidents that
                           impair their security. Further, the agencies would have had to
                           collaborate with others if necessary to address the incidents.
                           Additionally, agencies would be required to respond to incidents
                           no later than 24 hours after discovery or provide notice to
                           US-CERT as to why no action was taken. Finally, agencies would
                           have had to ensure that information security vulnerabilities were
                           mitigated timely. Since the proposed legislation was not approved,
                           US-CERT remains without enforcement authority.

                           US-CERT’s notices contain recommendations that address the
                           threats and vulnerabilities in federal agencies’ infrastructures.
                           Additionally, US-CERT products help to update federal
                           information security policy and guidance. Without the
                           enforcement authority to implement recommendations, US-CERT
                           continues to be hindered in coordinating the protection of federal
                           cyberspace.




4
    FISMA 2008 (Proposed Legislation), S. 3474, Calendar Number 1105, 110th Congress, Second Session.



           U.S. Computer Emergency Readiness Team Makes Progress in Securing Federal Cyberspace, but 

                                              Challenges Remain 


                                                  Page 6
                Additional Staffing Could Help Meet Mission

                US-CERT does not have sufficient staff to perform its 24x7
                operations as well as to analyze security information timely.
                US-CERT is charged with providing response support and defense
                against cyber attacks for the Federal Civil Executive Branch and
                information sharing and collaboration with state and local
                government, industry, and international partners. Without
                sufficient staffing, US-CERT cannot completely fulfill its
                responsibilities to analyze data and reports to reduce cyber threats
                and vulnerabilities as well as support the public and private
                sectors.

                Although US-CERT’s authorized positions were increased from 38
                in 2008 to 98 in 2010, as of January 2010, only 45 positions are
                filled. In October 2009, the DHS Secretary announced that
                cybersecurity is an urgent priority for the nation and the
                department would hire additional cyber analysts, developers, and
                engineers to ensure that crucial computer networks are not
                vulnerable to possible cyber attacks. Currently, US-CERT
                augments its staffing shortages by contractor support.

                Leadership turnover has hindered US-CERT’s ability to hire and
                retain qualified staff. In the past 5 years, US-CERT has had four
                directors, and the director position has been unfilled until as
                recently as of April 2010. Further, due to the department’s
                rigorous suitability clearance process, it takes US-CERT a
                significant amount of time to fill its critical positions. According
                to a former director, it takes 9 to 12 months for new applicants to
                begin working at US-CERT even if they already have a top secret
                clearance. As a result, staffing shortages force current analysts to
                perform additional duties, instead of fulfilling the technical analyst
                role for which they were hired.

                Strategic Plan is Needed

                US-CERT has not developed a strategic plan to formalize goals,
                objectives, and milestones. Specifically, US-CERT has not
                identified or prioritized key activities for the division to monitor its
                progress in accomplishing its mission and goals. Without a
                strategic plan, US-CERT may have difficulty in achieving its goal
                to provide response support and defense against potential cyber
                attacks for the federal government.



U.S. Computer Emergency Readiness Team Makes Progress in Securing Federal Cyberspace, but 

                                   Challenges Remain 


                                       Page 7
                The Comprehensive National Cybersecurity Initiative requires that
                the future cybersecurity environment be strengthened by defining
                and developing strategies to deter hostile and malicious activity in
                cyberspace. Additionally, the Government Performance Results
                Act requires agencies to develop strategic plans for program
                activities.

                According to program officials, US-CERT is developing a
                strategic plan. This strategic plan should describe how US-CERT
                will perform its critical role by identifying and aligning goals,
                objectives, and milestones through a variety of means and
                strategies. Also, the strategic plan should contain performance
                measures related to specific programs, initiatives, products, and
                outcomes.

                As the sophistication and effectiveness of cyber attacks have been
                steadily advancing in recent years, a strategic plan can help
                US-CERT to ensure that critical milestones and goals are
                accomplished in a timely manner. Further, a strategic plan can
                improve program operations by promoting the appropriate
                application of information resources.

                Performance Measures are Needed to Assess the Effectiveness
                of US-CERT

                US-CERT has not formalized performance measures to direct and
                monitor its efforts to accomplish its mission and goals. Without
                sufficient outcome measures, US-CERT cannot effectively assess
                its program activity against its intended results.

                Performance measures indicate whether a program is meeting its
                goals and achieving expected results. Further, performance
                measures address the direct products and services delivered by a
                program (outputs) and the results of those products and services
                (outcomes). Outcomes are important as they often describe the
                intended results or consequences that will occur from carrying out
                a program or activity.

                The NIPP requires that a performance measure based system be
                used to provide feedback on efforts to attain the goals and
                supporting objectives of the programs implemented. Measures
                provide a basis for establishing accountability, documenting actual
                performance, promoting effective management, and providing a
                feedback mechanism to decision makers. Additionally,


U.S. Computer Emergency Readiness Team Makes Progress in Securing Federal Cyberspace, but 

                                   Challenges Remain 


                                       Page 8
                performance measures offer a quantitative assessment to affirm
                that specific objectives are being met and gaps are identified in the
                national effort or individual agencies’ efforts.

                During our audit, US-CERT was in the process of developing
                performance measures. To date, US-CERT has provided the
                following performance measures to monitor its cybersecurity
                efforts for two of its four sections:

                           Percent of funds obligated.

                           Staffing level (filled or pending versus available).

                           The percent of reduction in false positive rates in the
                           Einstein.

                           US-CERT operation’s average time from the point a
                           logged incident is assigned a severity level in the system
                           to the point where a product to mitigate that incident is
                           delivered.

                           Percent of unique high alert level events detected by the
                           Einstein validated as legitimate incidents.

                           Creation of monthly metrics reports for each Einstein 2
                           agency.

                After fieldwork, US-CERT officials informed us that they are
                currently revising the performance measures they developed to
                align with the goals, objectives, and key outcomes outlined in the
                strategic plan. They are currently not tracking the performance
                measures listed above.

                Without outcome-based performance measures, US-CERT cannot
                track its or other public and private sectors’ progress in managing
                cybersecurity risks and threats efficiently and effectively.
                Additionally, the performance measures and strategic plan will aid
                US-CERT in evaluating its progress in building an effective
                organization capable of mitigating long-term cyber threats and
                vulnerabilities.




U.S. Computer Emergency Readiness Team Makes Progress in Securing Federal Cyberspace, but 

                                   Challenges Remain 


                                       Page 9
                Policies and Procedures Have Not Been Approved

                US-CERT has not approved its policies and procedures to ensure
                that management and operational controls are implemented to
                defend against, analyze, and respond to cyber attacks. Without the
                approved policies and procedures, US-CERT may be hindered in
                its ability to respond to security incidents effectively and promote
                continuity of operations and consistency.

                Leadership and staff turnover and a continually evolving mission
                have hindered US-CERT’s past efforts to update its standard
                operating procedures. Under the prior director, US-CERT
                outsourced to contractors off-site the function to maintain and
                update procedures. The process of updating the procedures
                discontinued once the director departed. Further, US-CERT
                officials determined that the outsourced procedures did not fully
                address the mission or the day-to-day activities that cyber analysts
                encounter. According to the officials, outsourcing off-site was not
                the best method to update these policies and procedures since
                US-CERT personnel have a better understanding of its mission.
                After internal reassessment, US-CERT officials decided to use
                contractor support on-site to develop more concise and direct
                SOPs.

                Currently, US-CERT is in the process of developing approximately
                80-90 standard operating procedures (SOP) for its four sections
                pertaining to various areas of activity, such as, network and
                targeted analyses, malware submission handling, and signature
                template development. The goal is to have a structure that maps to
                functions, roles, the organization, and the mission. US-CERT is
                attempting to make the procedures understandable and practical
                with contents based on analysts’ experiences.

                According to the Homeland Security Act of 2002, the head of each
                agency is responsible for implementing and overseeing an
                information security program as well as developing and
                maintaining information security policies, procedures, and control
                techniques to address all applicable requirements. Additionally,
                Office of Management and Budget (OMB) Circular
                Appendix -123, Management’s Responsibility for Internal Controls
                defines policies, and procedures as tools to help program managers
                achieve results and safeguard the integrity of their programs.




U.S. Computer Emergency Readiness Team Makes Progress in Securing Federal Cyberspace, but 

                                   Challenges Remain 


                                       Page 10
        Recommendations
                We recommend that the Under Secretary of NPPD require the
                Director of NCSD to:

                Recommendation #1: Establish specific outcome-based
                performance measures and a strategic plan to ensure that
                US-CERT can achieve its mission, objectives, and milestones.

                Recommendation #2: Approve policies and procedures to ensure
                that US-CERT can effectively detect, process, and mitigate
                incidents as well as perform its roles and responsibilities in a
                consistent manner.

        Management Comments and OIG Analysis
                NPPD concurred with recommendation 1. In April 2010,
                US-CERT released planning guidance to detail how US-CERT will
                conduct mission and resource planning; establish planning
                priorities; identify interrelationships between planning efforts;
                assign responsibilities for planning; and identify general timelines
                for its planning effort. US-CERT is developing a strategic plan
                that will map outcome-based objectives to the mission goals and
                identify performance measures that are measurable, attainable,
                realistic, and timely. Through these performance measures,
                US-CERT will continually evaluate its organizational performance
                to determine whether projects and initiatives are achieving desired
                results and to select improvement initiatives with the greatest
                positive organizational impact. US-CERT plans to complete the
                strategic plan and identify performance measures by July 15, 2010.

                We agree that the steps that NPPD has taken, and plans to take
                satisfy this recommendation. This recommendation will remain
                open until NPPD provides documentation to support that all
                planned corrective actions are completed.

                NPPD concurred with recommendation 2, insofar as there is a need
                for US-CERT to approve and review SOPs regularly to ensure that
                US-CERT can perform the roles and responsibilities in a consistent
                manner, including the detection, analysis and mitigation of
                incidents. Specific operational procedures, internal functions, and
                processes are defined within supporting SOPs that are approved by
                US-CERT leadership. Due to its operational nature, the dynamic



U.S. Computer Emergency Readiness Team Makes Progress in Securing Federal Cyberspace, but 

                                   Challenges Remain 


                                       Page 11
                threat, and evolving cyber community (including within DHS),
                US-CERT officials stated that it cannot accurately determine the
                number of SOPs that may be required, as new SOPs are often
                identified on a regular basis and SOPs are sometimes combined to
                improve coordination efficiency within US-CERT. Once
                approved, an SOP will be reviewed at least bi-annually.

                We agree that the steps that NPPD has taken, and plans to take
                satisfy this recommendation. This recommendation will remain
                open until NPPD provides documentation to support that all
                planned corrective actions are completed.


Better Information Sharing and Communication Can Enhance
Coordination Efforts With the Public
                US-CERT needs to improve its information sharing and
                communication efforts with federal agencies to ensure that threats
                and vulnerabilities are mitigated timely. Specifically, officials
                from other federal agencies expressed concerns that US-CERT was
                unable to share near real-time data and classified and detailed
                information to address security incidents.

                We interviewed officials from eight federal agencies to obtain
                feedback on Einstein and to determine whether US-CERT shared
                sufficient information and communicated effectively. Overall,
                these agency officials indicated that Einstein is an effective tool
                but expressed concerns regarding the effectiveness of US-CERT’s
                information sharing and communication.

                Officials from six agencies expressed concerns regarding
                US-CERT not sharing Einstein data and analysis results.
                According to some of the federal agency officials we interviewed,
                US-CERT agreed that they would have access to the Einstein flow
                data but subsequently did not provide the information. This data
                could assist agencies in performing analyses with their locally
                collected data to identify potential threats and vulnerabilities.
                Also, agency officials stated that it would be helpful for US-CERT
                to list which agencies are being attacked and provide common
                trends to other agencies to determine whether the incident is
                isolated or systemic.




U.S. Computer Emergency Readiness Team Makes Progress in Securing Federal Cyberspace, but 

                                   Challenges Remain 


                                       Page 12
                Further, agencies indicated that US-CERT has not provided
                sufficient training on the Einstein program. Some agencies
                indicated that they received compact disk, portable document
                format brochures, and handbooks about the Einstein program,
                while other agencies received nothing. Agencies indicated that
                they would like to receive additional Einstein training from
                US-CERT.

                US-CERT officials acknowledged that there are communications
                issues regarding sharing classified and detailed information with
                other agencies. For example, US-CERT collects and posts
                information from several systems and sources to different portals,
                all of which have different classification levels. As a result,
                US-CERT officials believe that communications needs could be
                best addressed by developing a consolidated information sharing
                portal. The consolidated portal could provide a multiple
                classification platform and serve as a central repository to meet the
                needs of the stakeholders.

                A challenge US-CERT faces is that many intelligence agencies
                communicate classified information on Top Secret/Sensitive
                Compartmented Information networks. Since not all agencies have
                access to classified networks, US-CERT is limited in what it can
                convey. Some agencies do not have secure facilities, equipment,
                and cleared personnel to send or receive classified information.

                Additionally, US-CERT has to deal with the various network
                architectures of the different agencies. Since US-CERT does not
                have access to each agency’s architecture, it is imperative to have
                the agency Chief Information Officer (CIO) and Chief Information
                Security Officer (CISO) involved in addressing cyber activities.
                Establishing direct, regular communication with agency
                CIOs/CISOs or key security assurance personnel ensures that
                US-CERT’s cybersecurity efforts are implemented. For example,
                US-CERT and the CIO/CISO can determine what should be
                implemented to improve the agency’s situational awareness.
                Further, they can address network and cybersecurity challenges
                such as fragmented infrastructures, legacy systems, and limited
                budgets.

                Currently, US-CERT uses working groups and portals to share
                information with the public and private sectors. For example,
                US-CERT established the Joint Agency Cyber Knowledge
                Exchange and Government Forum of Incident Response and


U.S. Computer Emergency Readiness Team Makes Progress in Securing Federal Cyberspace, but 

                                   Challenges Remain 


                                       Page 13
                          Security Teams (GFIRST) to facilitate collaboration on detecting
                          and mitigating threats to the “.gov” domain and to encourage
                          proactive and preventative security practices. The Joint Agency
                          Cyber Knowledge Exchange meetings are held at a classified level
                          to discuss threat-related tactics, techniques, and protocol.
                          Additionally, US-CERT disseminates various reports and notices
                          through the GFIRST and US-CERT portals. 5 These products
                          contain a summary of the incident, mitigation strategies, and best
                          practices. The products are disseminated to stakeholders on an
                          as-needed, daily, monthly, or quarterly basis.

                          It is essential that US-CERT and the public and private sectors
                          share cybersecurity information to ensure that appropriate steps
                          can be taken to mitigate the potential effect of a cyber incident.
                          US-CERT cannot defend against and respond consistently and
                          effectively to cyberactivity without other agencies’ involvement.
                          By sharing potential security threats collected through its data
                          sources, US-CERT can provide agencies with detailed information
                          regarding attacks to their networks.

                 Recommendations
                          We recommend that the Under Secretary of NPPD require the
                          Director of NCSD to:

                          Recommendation #3: Improve communications with federal
                          agency CIOs and CISOs to address their concerns, to identify areas
                          of improvement about the program, and to enhance US-CERT’s
                          ability to combat cybersecurity challenges.

                          Recommendation #4: Establish a consolidated, multiple
                          classification level portal that can be accessed by the federal
                          partners that includes real-time incident response related
                          information and reports.

                          Recommendation #5: Develop a process to distribute and share
                          Einstein trends, anomalies, and common/reoccurring attacks with
                          other federal agencies.



5
 Products US-CERT disseminates include: Situational Awareness Reports, Critical Infrastructure
Information Notices, Federal Information Notices, Early Warning Indicator Notices, and Malware Initial
Findings Reports.



         U.S. Computer Emergency Readiness Team Makes Progress in Securing Federal Cyberspace, but 

                                            Challenges Remain 


                                                Page 14
                Recommendation #6: Provide training to federal agencies on
                using available features of Einstein to foster better cooperation in
                analyzing and mitigating security incidents.

        Management Comments and OIG Analysis
                NPPD concurs with recommendation 3. US-CERT recognizes the
                need for stronger communication with departments and agencies.
                Moreover, US-CERT must maintain a technical interchange with
                agency security operation centers and relationships with
                departments and agencies to share cybersecurity posture
                information regarding their agency and how they can enhance it.

                US-CERT offers multiple products, services, and forums to
                support agency engagement. Recently, US-CERT has been
                providing contextual classified and unclassified briefings to agency
                CIO offices and their staff on the cyber threat. US-CERT is also
                evaluating an agency-specific product that would help each agency
                understand the Einstein 2 activity identified in context of the
                larger, consolidated dataset of on-going attacks and threats.
                US-CERT is planning to distribute this agency-specific product by
                the end of Fiscal Year (FY) 2010. Additionally, US-CERT is
                developing a more comprehensive information sharing and
                collaboration environment as part of its Einstein program to
                support continuous communications on vulnerabilities, indicators,
                and mitigation with initial deployment planned for FY 2012. As
                US-CERT’s goal is to hire additional staff in FY 2011 and FY
                2012, US-CERT plans to establish better outreach strategies, such
                as a customer advocacy program wherein each agency would have
                a specific contact person at US-CERT with whom to interact. This
                will enable US-CERT to maintain a more proactive relationship
                with each agency. US-CERT plans to draft the Outreach Strategy
                by the second quarter of FY 2011.

                We agree that the steps that NPPD has taken, and plans to take
                satisfy this recommendation. This recommendation will remain
                open until NPPD provides documentation to support that all
                planned corrective actions are completed.

                NPPD concurs with recommendation 4 and agrees with the need to
                share information and collaborate with federal partners across
                multiple levels of classification. However, US-CERT currently
                generates very limited classified data to be shared with federal
                agencies. This limits the efficiencies that would be realized by


U.S. Computer Emergency Readiness Team Makes Progress in Securing Federal Cyberspace, but 

                                   Challenges Remain 


                                       Page 15
                creating a multiple classification level portal. As US-CERT’s
                capabilities continue to grow, it is anticipated that increasing
                amounts of classified data will be produced. Prior to implementing
                a multiple classification level portal, US-CERT will assess the
                feasibility of various portal models and create one at the
                appropriate level of classification.

                In the meantime, US-CERT is developing a strategy for an
                information sharing environment that can be employed at all levels
                of classification. US-CERT is developing a more robust
                information sharing and collaboration environment across its
                private and public sector constituents with the initial deployment
                planned for FY 2012. Additionally, US-CERT will develop a
                more effective information sharing and collaboration presence on
                the classified networks.

                We agree that the steps that NPPD has taken, and plans to take
                satisfy this recommendation. This recommendation will remain
                open until NPPD provides documentation to support that all
                planned corrective actions are completed.

                NPPD concurs with recommendation 5. US-CERT is currently
                evaluating an agency-specific product that would help each agency
                understand the activity that Einstein detects for that agency against
                aggregated constituent data. US-CERT is prototyping the report
                and plans to provide fully processed products to agencies by the
                end of FY 2010. As part of the Einstein 2 effort, US-CERT is also
                developing an information sharing portal to enable each agency to
                have a direct view of its serialized Einstein data and to be able to
                compare that to the broader federal community.

                We agree that the steps that NPPD has taken, and plans to take
                satisfy this recommendation. This recommendation will remain
                open until NPPD provides documentation to support that all
                planned corrective actions are completed.

                NPPD concurs with recommendation 6. Currently, federal
                agencies only have access to netflow data within Einstein. The
                NCSD’s Network Security Deployment Branch is responsible for
                Einstein deployment and discusses netflow data access with the
                federal agency during system installation. The Network Security
                Deployment Branch will ensure that a discussion and instructions
                on how to access flow data is included as a formal agenda item
                during each Einstein deployment. Additionally, US-CERT will be


U.S. Computer Emergency Readiness Team Makes Progress in Securing Federal Cyberspace, but 

                                   Challenges Remain 


                                       Page 16
                evaluating netflow and other Einstein training requirements for
                federal agencies and will provide periodic training in FY 2011.

                We agree that the steps that NPPD has taken, and plans to take
                satisfy this recommendation. This recommendation will remain
                open until NPPD provides documentation to support that all
                planned corrective actions are completed.


Improved Situational Awareness and Identification of Network
Anomalies Can Better Protect Federal Cyberspace
                US-CERT is unable to monitor federal cyberspace in real time.
                The tools US-CERT uses do not allow real-time analyses of
                network traffic. As a result, US-CERT will continue to be
                challenged in protecting the federal cyberspace from
                security-related threats.

                Currently, US-CERT maintains near real-time situational
                awareness as it performs information aggregation activities.
                US-CERT collects data real-time but it must perform analysis on
                the data in near real-time. Cyber analysts receive information from
                a variety of sources and other US-CERT activities to identify
                potential incidents and to assess their possible scope and impact on
                the nation’s cyber infrastructure (see Figure 2).




U.S. Computer Emergency Readiness Team Makes Progress in Securing Federal Cyberspace, but 

                                   Challenges Remain 


                                       Page 17
                          Figure 2. US-CERT’s Information Workflow.              Source: US-CERT

                          Einstein is being deployed in three different versions, whereby,
                          each builds on the capabilities of the previous version:

                                        Einstein 1 (E1) collects and relies on net flow analysis
                                        capability and uses net flow collectors. Net flow data is
                                        queried for analysis.

                                        Einstein 2 (E2) is an intrusion detection system, but is
                                        still passive, performing analysis while traffic is
                                        continuous. 6 E2 looks for anomalous activity from net
                                        flow information based on every session between two
                                        computers on the internet. E2 is more beneficial for
                                        detecting and mitigating cyber incidents because of its
                                        ability to analyze packet data. Additionally, E2
                                        performs full session packet analysis.



6
 Intrusion detection is the process of monitoring the events occurring in a computer systems or network
and analyzing them for signs of possible incidents that violate or imminently threaten to violate of
computer security policies, acceptable use policies, or standard security practices.



         U.S. Computer Emergency Readiness Team Makes Progress in Securing Federal Cyberspace, but 

                                            Challenges Remain 


                                                 Page 18
                                       Einstein 3 (E3) draws on commercial technology and
                                       specialized government technology to conduct
                                       real-time full packet inspection and threat-based
                                       decision making on network traffic entering or leaving
                                       the executive branch networks. 7 This system also
                                       deploys an intrusion prevention feature. 8

                          Additionally, US-CERT employs technology, systems, and tools to
                          fulfill its mission requirements to protect and defend the nation’s
                          infrastructure against potential threats from cyberspace, and
                          respond to security incidents. Currently, US-CERT uses the
                          following list of tools to detect and mitigate cybersecurity
                          incidents: Remedy, SiLK, Sharepoint, Wire Shark, Jabber Server,
                          Deep Sight, and Sourcefire.

                          With Einstein, US-CERT can gather more network traffic
                          information and identify cyber activity patterns. However,
                          US-CERT cannot capture all network traffic because Einstein has
                          not been deployed to all federal agencies. Initially, the deployment
                          of E1 to federal agencies was entirely voluntary. In September
                          2008, OMB made Einstein part of the Trusted Internet Connections
                          initiative and required all agencies to install sensors on their
                          networks. 9

                          As of October 2009, NCSD’s Network Security Deployment
                          Branch had deployed E1 to 19 agencies and E2 to 8 agencies.
                          Currently, US-CERT is conducting a pilot exercise of E3 to
                          evaluate its capabilities. According to the Comprehensive
                          National Cybersecurity Initiative and US-CERT officials, E3 will
                          contain real-time full packet inspection and an intrusion prevention
                          feature. These additions should give US-CERT better response
                          and monitoring capabilities.

                          According to US-CERT officials, many agencies have not installed
                          Einstein because they have not consolidated their gateways to the

7
  Packet inspection refers to performing some type of stateful protocol analysis, often combined with a
firewall capability that can block communications determined to be malicious.
8
  Intrusion prevention is the process of performing intrusion detection and attempting to stop possible
incidents.
9
  OMB Memorandum M-08-27, Guidance for Trusted Internet Connection Compliance, September 2008.
OMB Memorandum M-08-05, Implementation of Trusted Internet Connection, November 2007 defined the
purpose of Trusted Internet Connections initiative as an approach to optimize individual agency network
services into a common solution for the federal government to reduce its external connections, including
internet points of presence.



         U.S. Computer Emergency Readiness Team Makes Progress in Securing Federal Cyberspace, but 

                                            Challenges Remain 


                                                Page 19
                          Internet. Further, some agencies have fragmented networks and
                          must upgrade their architectures before Einstein can be deployed.

                          Additionally, US-CERT does not have an automated correlation
                          tool to identify trends and anomalies. With this vast amount of
                          network traffic, US-CERT experienced a long lead time to analyze
                          potential security threats or abnormalities. To reduce the lead
                          time, NCSD purchased an automated correlation tool to analyze
                          the vast amount of data from Einstein. 10 However, US-CERT is
                          currently experiencing problems with reconfiguring the tool to
                          collect data and understand the overall data flow. US-CERT
                          management stated that it may be 6 months before the problems
                          are corrected and the benefits of the system can be seen.

                          According to the Homeland Security Act of 2002, DHS shall
                          establish appropriate systems, mechanisms, and procedures to
                          share homeland security information relevant to threats and
                          vulnerabilities in national critical infrastructure and key resources
                          with other federal departments and agencies, state and local
                          governments, and the private sector in a timely manner. Further,
                          The National Strategy to Secure Cyberspace recommends that
                          DHS coordinate with other federal agencies to share specific
                          warning information and advice about appropriate protective
                          measures and countermeasures.

                          An effective analysis and warning program is critical to secure the
                          federal information technology infrastructure. For US-CERT to
                          perform its responsibilities successfully, it must have sufficient
                          state-of-the-art technical and analytical tools and technologies to
                          identify, detect, analyze, and respond to cyber attacks.
                          Additionally, cybersecurity information can provide the public and
                          private sectors with valuable input for mitigating risks and threats,
                          protecting against malicious attacks, and prioritizing security
                          improvement efforts.




10
  The automated correlation tool is an event management tool that takes and correlates information from
both Sourcefire and SiLK. It will be used to write an event filter if two events occur – connection and
detection.



         U.S. Computer Emergency Readiness Team Makes Progress in Securing Federal Cyberspace, but 

                                            Challenges Remain 


                                                 Page 20
        Recommendation
                We recommend that the Under Secretary of NPPD require the
                Director of NCSD to:

                Recommendation #7: Establish a capability to share real time
                Einstein information with federal agencies partners to assist them
                in the analysis and mitigation of incidents.

        Management Comments and OIG Analysis
                NPPD did not concur with recommendation 7 to the extent it
                relates to E2. US-CERT bases the implementation of signatures in
                E2 on current threats to the federal government. As a result of the
                events triggered by the signatures, US-CERT is working to provide
                federal agencies with serialized, near real-time analysis reports
                derived from E2 data. NPPD officials stated that while some
                departments and agencies with E1 netflow sensors installed have
                access to netflow data, that access is not real-time or near
                real-time. Additionally, NPPD maintained that no such access was
                ever contemplated by the program. Moreover, for a variety of
                reasons, ranging from volume of data, need for validation via
                analysis/processing and classification issues, neither the current E2
                deployment, nor the planned E3 solution contemplate sharing
                unprocessed raw intrusion detection system and intrusion
                prevention system data with departments and agencies in near
                real-time.

                We consider this recommendation unresolved and will require
                additional discussion between our offices before disposition. We
                maintain that due to the dynamic nature of cyber attacks, NPPD
                should ensure that the least amount of time is used to analyze
                potential threat and vulnerability data and share the information
                with other federal agencies in a timely manner to facilitate prompt
                actions that would minimize the impact of the risk. As a result,
                NPPD needs to reposition itself from being reactive to proactive in
                responding to potential risks.




U.S. Computer Emergency Readiness Team Makes Progress in Securing Federal Cyberspace, but 

                                   Challenges Remain 


                                       Page 21
Appendix A
Purpose, Scope, and Methodology


                      The objective of our audit was to determine whether US-CERT is
                      effective in its efforts to coordinate national cyber analyses and
                      warnings against and response to attacks within the nation’s
                      critical infrastructure. Specifically, we determined whether
                      US-CERT:

                               Has implemented an effective national cyber analysis and
                               warning program to protect against cyber attack.

                               Is properly managing its collaborative efforts to coordinate
                               and facilitate information sharing on cybersecurity issues
                               among the public and private sectors.

                               Is properly administering its tools to assess situational
                               awareness of the cyberspace and identify network
                               anomalies spanning the federal government.

                      Our review focused on US-CERT’s operations based on the
                      requirements outlined in Homeland Security/ Presidential Directive
                      7, National Infrastructure Protection Plan (2009), The National
                      Response Framework (January 2008), The National Strategy to
                      Secure Cyberspace (February 2003), The Comprehensive National
                      Cybersecurity Initiative, and Office of Management and Budget
                      Memorandums for the Government Performance and Results Act.
                      We interviewed selected US-CERT and NCSD management
                      officials, as well as personnel from the DHS Network Operations
                      Center/Security Operations Center. Further, we interviewed
                      personnel from departments of Agriculture, Education, Interior,
                      Justice, State, and Transportation, Executive Office of the
                      President, and United States Agency for International
                      Development regarding US-CERT’s communication methods,
                      information sharing, tools, incident management, and
                      cybersecurity concerns.

                      We conducted our fieldwork at both program and management
                      levels and visited the Federally Funded Research and Development
                      Center at Carnegie Mellon University in Pittsburgh, Pennsylvania.
                      We conducted this audit between October 2009 and March 2010
                      according to generally accepted government auditing standards.
                      Those standards require that we plan and perform a reasonable
                      basis for our findings and conclusions based on our audit


      U.S. Computer Emergency Readiness Team Makes Progress in Securing Federal Cyberspace, but
                                         Challenges Remain

                                            Page 22
Appendix A
Purpose, Scope, and Methodology


                      objectives. We believe that the evidence obtained provides a 

                      reasonable basis for our findings and conclusions based on our 

                      audit objectives. Major OIG contributors to the audit are identified 

                      in Appendix D.


                      The principal OIG points of contact for the audit are

                      Frank W. Deffer, Assistant Inspector General, Information 

                      Technology Audits, at (202) 254-4041, and Chiu-Tong Tsang, 

                      Director, Information Security Audit Division, at (202) 254-5472. 





      U.S. Computer Emergency Readiness Team Makes Progress in Securing Federal Cyberspace, but 

                                         Challenges Remain 


                                             Page 23
Appendix B
Management Comments to the Draft Report
________________________________________________________________________




      U.S. Computer Emergency Readiness Team Makes Progress in Securing Federal Cyberspace, but 

                                         Challenges Remain 


                                             Page 24
Appendix B
Management Comments to the Draft Report




      U.S. Computer Emergency Readiness Team Makes Progress in Securing Federal Cyberspace, but 

                                         Challenges Remain 


                                             Page 25
Appendix B
Management Comments to the Draft Report




      U.S. Computer Emergency Readiness Team Makes Progress in Securing Federal Cyberspace, but 

                                         Challenges Remain 


                                             Page 26
Appendix B
Management Comments to the Draft Report




      U.S. Computer Emergency Readiness Team Makes Progress in Securing Federal Cyberspace, but 

                                         Challenges Remain 


                                             Page 27
Appendix C
Major OIG Contributors to this Report
________________________________________________________________________



                      Information Security Audit Division

                      Edward Coleman, Director
                      Chiu-Tong Tsang, Director
                      Tarsha Cary, Audit Manager
                      Pamela Chambliss-Williams, Senior IT Auditor
                      Shannon Frenyea, Senior Program Analyst
                      David Bunning, IT Specialist

                      Swati Nijhawan, Referencer




      U.S. Computer Emergency Readiness Team Makes Progress in Securing Federal Cyberspace, but 

                                         Challenges Remain 


                                             Page 28
Appendix D
Report Distribution
________________________________________________________________________

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      Executive Secretary
                      Assistant Secretary, Legislative Affairs
                      Assistant Secretary, Policy
                      Assistant Secretary, Public Affairs
                      General Counsel
                      Office of Security
                      Office of Privacy
                      Assistant Secretary, Cyber Security and Communications
                      Chief Information Officer (CIO)
                      Deputy CIO
                      Chief Information Security Officer
                      Director, NCSD
                      Director, US-CERT
                      Information Systems Security Manager, NPPD
                      Director, Departmental GAO/OIG Liaison Office
                      Director, Compliance and Oversight Program
                      Audit Liaison, NPPD
                      Audit Liaison, DHS/CISO
                      Audit Liaison, DHS/CIO
                      Director, Information Security Audit Division (ISAD)
                      Audit Manager, ISAD

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Appropriate Congressional Oversight and Appropriations
                      Committees




      U.S. Computer Emergency Readiness Team Makes Progress in Securing Federal Cyberspace, but 

                                         Challenges Remain 


                                             Page 29
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
